No. 20-5672
IN THE SUPREME COURT OF THE UNITED STATES
_________________
DAVID KAREEM TURPIN, PETITIONER
v.

UNITED STATES OF AMERICA
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITION, via email and first-class mail,
postage prepaid, this 3rd day of December 2020.
[See Attached Service List]

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
December 3, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

20-5672
TURPIN, DAVID KAREEM
USA

JACLYN LEE TARLTON
ASSITANT FEDERAL PUBLIC DEFENDER
150 FAYETTEVILLE ST.
STE. 450
RALEIGH, NC 27601

